Pension Benefit Guaranty Corporation
   Office of Inspector General
         Evaluation Report




         The Length Of Time
     It Has Taken PBGC To Issue
    Initial Determination Letters




            March 2, 1999
                                    99-3/23128-2
Contents


Letter


Appendix I
Average Elapsed Time From Date of Trusteeship
to Issuance of Initial Determination Letters




Appendix II
Average Elapsed Time From the Actuarial Valuation
Completion Date to Issuance of Initial Determination
Letters


Tab I
Agency Comments




Abbreviations
AVCD       Actuarial Valuation Completion Date
DOPT       Date of Plan Termination
DOTR       Date of Trusteeship
ERISA      Employee Retirement Income Security Act of 1974
FY         Fiscal Year
IDL        Initial Determination Letter
IPS        Image Processing System
IOD        Insurance Operations Department
PBGC       Pension Benefit Guaranty Corporation
PRISM      Participant Record Information System Management




                                                              99-3/23128-2
99-3/23128-2
                                                                            Office of Inspector General


                                                                                   March 2, 1999




The Honorable Charles E. Grassley
Chairman
Special Committee on Aging
United States Senate
Washington, DC 20510-6400

         This letter responds to your request that we conduct a multi-year review of the
length of time that it takes the Pension Benefit Guaranty Corporation (PBGC) to issue
initial determination letters (IDLs)1 to participants in terminated pension plans.
Appendices I and II contain graphic presentations showing the elapsed time from two
different processing events leading to the issuance of IDLs.

RESULTS

        We selected a sample of 60 terminated pension plans which represents
approximately 96,000 participants and approximately 87,000 IDLs. We asked PBGC to
provide certain plan and participant information for our sample. In addition, we
requested PBGC to provide an assertion of data reliability. We received the requested
data from PBGC without a data reliability assertion.

        Using the sample data provided by PBGC, we selected the Date of Trusteeship
(DOTR) and the Actuarial Valuation Completion Date (AVCD) to calculate historical
average lengths of time taken by PBGC to issue IDLs to participants. The DOTR was
selected because PBGC uses this date to calculate and subsequently report the average
length of time it takes to issue IDLs to participants.2 The AVCD date was selected
because at this point in the benefit determination process the analysis of participant
information has been completed, and each participant’s final benefit amount has been
determined.




1
  An IDL is notification from the agency on the decision regarding entitlement to a benefit,
amount of the benefit, and other conditions of the benefit. Early IDLs are issued before
completion of the final valuation to participants, for example, those who have been in pay status
for five years or more as of the date of plan termination (DOPT).

2
  One of PBGC’s performance outcomes is to provide accurate IDLs to participants within 3-5
years of plan trusteeship. In order to measure performance against the goal, PBGC has begun
publishing statistics regarding timeliness of IDL issuance. The published length of time is
expressed in terms of a Fiscal Year (FY) average. The FY average is calculated by summing the
length of time elapsed between DOTR and date of issuance for all IDLs issued during the
particular FY. The resulting total is then divided by the number of IDLs issued for the FY.




                                                                                       99-3/23128-2
        To respond to your request, we compared IDL issuance dates against the DOTR
and the AVCD dates and, from this information, we constructed an aging analysis that
yielded the following historical information. The data, drawn from the sample of 60
plans that included approximately 87,000 IDLs, showed:

•   A majority of IDLs were issued more than five years after DOTR.     For
    example,

       --   26% were issued between 2 and 5 years;

       --   42% were issued between 6 and 10 years; and

       --   16% were issued between 11 and 20 years (see Appendix I).

•   A majority of IDLs were issued more than one year after the AVCD. For
    example,

       --   26% were issued within 1 year;

       --   29% were issued between 2-3 years; and

       --   17% were issued between 4-6 years (see Appendix II).

BACKGROUND

        The PBGC was established by the Employee Retirement Income Security Act of
1974 (ERISA) to ensure that participants in private sector defined benefit plans receive
their pensions even if their plans terminate without sufficient assets to pay promised
benefits. Separate insurance programs protect participants in single-employer and
multiemployer pension plans. The Insurance Operations Department (IOD) is assigned
program responsibility for the processing of pension plan terminations and benefit
determinations.

         At September 30, 1998, PBGC was trustee, or in the process of becoming
trustee, of 2,665 terminated pension plans. One of PBGC’s responsibilities under
ERISA is to ensure the uninterrupted payment of pension benefits to plan participants.
PBGC calculates the actual benefit to be paid to each participant according to the
specific terms of the participant’s plan, statutory guarantee levels, and the funds
available from plan assets and employer recoveries. PBGC uses the IDL to notify
participants of an official decision regarding entitlement to, amount, and other
conditions of a benefit.

        The criteria applicable to IDLs is in the Code of Federal Regulations, Title 29,
Part 4003, which defines initial determinations made by PBGC, describes the form and
content of initial determinations, and establishes the rules for administrative review.
IOD’s Procedures Manual addresses notification to the participants regarding the
benefit and other factors in the calculation of the benefit. In FY 1998, PBGC disbursed
approximately $848 million in monthly pension and lump sum benefit payments to
retired plan participants or their beneficiaries. The amounts paid have increased from
approximately $66 million disbursed during FY 1980.

OBJECTIVE AND SCOPE

        The review objective was to determine the length of time it has taken PBGC to


                                             2
                                                                              99-3/23128-2
issue an IDL. To accomplish our objective, we selected a sample of 60 plans from a
population of 1,715 plans which had been terminated and trusteed by PBGC and for
which IDLs had been issued. From the sample of 60 plans, we identified from PBGC’s
electronic records that approximately 87,000 IDLs had been issued. Plans that had
issued early IDLs and plans that had not yet completed the benefit determination
process were not included in the sample population.

         The universe of the plans’ DOTRs ranged from 1974 through 1996, a span of 22
years. In addition, the sample included various size plans -- the smallest plan had 8
participants while the largest plan had more than 20,000 participants. The sample was
stratified to contain all plans with a participant/beneficiary count greater than 5,000 (8
of the 60). The remaining 52 plans were selected randomly. According to PBGC’s
records, most of the plans in the sample had completed the case closure process.3

        We did not perform any detailed testing of balances, transactions, procedures,
or internal controls as part of this review. We did not perform any control testing of
PBGC electronic data processing systems from which IDL information was extracted.
Deloitte & Touche LLP was engaged by the PBGC Office of Inspector General to assist in
reviewing the data provided by PBGC.

DATA RELIABILITY

         We selected a sample of 60 terminated pension plans representing
approximately 87,000 IDLs. PBGC was asked to provide certain plan and participant
information about the sample and to provide an assertion of reliability for that data. We
received the requested data from PBGC without a reliability assertion. PBGC cited the
age of the data and the lack of control over data input as reasons for not providing a
reliability assertion.

        From our review, we identified problems pertaining to participants’ IDL data
maintained on two PBGC information systems -- the Participant Record Information
System (PRISM) and the Image Processing System (IPS).4 PBGC uses information from
PRISM for a variety of operational purposes, i.e., to pay benefits, to answer participants’
questions about their benefit calculations, and to determine budgetary requirements.
Specifically, we identified from sample data that PRISM contained duplicate, incomplete
and erroneous data. For example, we compared individual IDL dates in PRISM to the
IDL dates in source documents maintained in IPS. Our testing results showed that
imaged documents for 59 out of 177 IDLs (33%) were missing in IPS and could not be
located by PBGC. Another test revealed that the date recorded in PRISM differed from
the actual date printed on the IDL sent to participants in 37 out of 177 instances (21%).

       In addition, we tested 25 of the 60 plans to determine the accuracy of the DOTR
and AVCD dates recorded in PBGC databases. We compared the dates provided by
PBGC to applicable source documents. For the 25 plans, the DOTR agreed to the
source documentation without exception. However, for the AVCD, only nine dates
agreed with the supporting documentation.

3
 The case closure process is to ensure that the required benefit determination processes have
been completed: i.e., that all locatable participants have received correct IDLs, that eligible
participants are receiving or will receive benefits, and that plan and participant files are in a
condition that facilitates benefit administration. A close-out group performs a statistical sample
review to ensure that the required actions have been completed. The ongoing administration of
the plan is then passed to a contractor who manages the plan under PBGC direction.

4
 IPS is an electronic equivalent of the paper systems traditionally used by PBGC and was
implemented to provide an electronic alternative for document archival and retrieval.

                                                 3
                                                                                      99-3/23128-2
